06/03/03          06:50 FAX 301 903
                                  - 4656              CAPITAL REGION                 -    FORS FIVEA         I 005
   .---------     --                                                                                                 i--



 OE F 1325.8 '
(o-e3)                                                                                   Department of Energy
United States GovermentDepartment                                                                   of Energy


memorandum
         DATE:           AMs 0 2 03                            Audit Report No.: OAS-L-03-17
    REPLY TO
     ATTN OF:       IG-34 (AO3PR013)
     SUBJECT:       Audit of the Distributed Energy Resources Program

            TO:     Assistant Secretary for Energy Efficiency and Renewable Energy, EE-1

                    The purpose of this report is to inform you of the results of our review of the Distributed
                    Energy Resource program (DER). This review was initiated in February 2003 and
                    fieldwork was conducted through March 2003 at Department Headquarters. The review
                    methodology is described in the attachment to this report.

                     INTRODUCTION AND OBJECTIVE

                     The Distributed Energy and Electricity Reliability program's mission is to strengthen
                     America's electric energy infrastructure and provide utilities and consumers with a greater
                     array of energy efficient technology choices for the generation, transmission, distribution,
                     storage, and demand management of electric power and thermal energy. The DER
                     portion of the program received appropriations totaling about $55 million in Fiscal Year
                     (FY) 2003. Our objective was to determine whether the DER program has established
                     long-term goals and implemented a spending strategy to meet its goals.

                     CONCLUSIONS AND OBSERVATIONS

                     We have decided to close this audit because management has recently changed its long-
                     term program goals. Previously, the program's goal was to deploy distributed generation
                     technologies. Specifically, the program indicated that its investment in distributed energy
                     generation (e.g., microturbines, reciprocating engines, and cooling, heating and power
                     technologies) would provide nearly 20 percent of the nation's new power by 2020.
                     However, a peer review questioned whether this goal could be achieved. Furthermore,
                     program officials recognized a disparity between the deployment goal and the program's
                     funding focus on improving technology efficiencies, reducing operating cost and
                     environmental improvements. These issues were addressed in FY 2003 when the
                      program modified its goals to address the shift in focus. Because the extent of these
                      changes, we believe it is too early to measure the program's strategy towards achieving
                      the new long-term goals. We may revisit this issue in the future.
06/03/03   06:50 FAX 301 903 4656             CAPITAL REGION                -   FORS FIVEA             Q006




                                                         2



             Since no recommendations are being made in this letter report, a formal response is not
             required. We appreciated the cooperation of your staff throughout the audit.



                                                  Ricke R. Hass, Director
                                                  Science, Energy, Technology,
                                                     and Financial Audits
                                                  Office of Audit Services
                                                  Office of Inspector General

             Attachment

             cc: Director, Office of the Distributed Energy and Electricity Reliability Program, EE-2D
                 Audit Liaison, Energy Efficiency and Renewable Energy, EE-03
                 Team Leader, Audit Liaison, ME-2.1
06/03/03   06:50 FAX 301 903 4656              CAPITAL REGION               -   FORS FIVEA           [g007




                                                                                        Attachment

             METHODOLOGY

             To accomplish the audit objective, we:

             *    Compared program goals to regulations to identify any areas of non-compliance;

             *    Held discussions with Department Headquarters personnel to determine the program's
                  goals and how they were formulated, barriers to implementation, applicable laws and
                  regulations, and how funding is prioritized and disseminated;

             *    Analyzed data from Energy Information Administration to determine total power
                  usage in the nation, what part of total power usage came from distributed energy, and
                  projections of power usage for distributed energy;

              *   Held discussions with Federal Energy Regulatory Commission officials to determine
                  the viability of implementing the Distributed Energy Resource program (DER) on
                  electric grids and the impact of recent regulatory efforts on the deployment of DER
                  technologies;

              *   Held discussions with Edison Electric Institute, National Rural Electric Cooperative
                  Association, National Association of Regulatory Utility Commissioners, National
                  Association of State Energy Officials, American Council for an Energy-Efficient
                  Economy, Northeast Midwest Institute, and Resource Dynamics Corporation officials
                  to identify the barriers to successful implementation of distributed energy
                  technologies according to each organization; and,

              *    Held discussions with U.S. Environmental Protection Agency and U.S. Department of
                   Housing and Urban Development officials to determine what types of DER-related
                   programs exist in other federal agencies.


              We conducted the audit according to generally accepted Government auditing standards
              for performance audits and included tests for internal controls and with laws and
              regulations to the extent necessary to satisfy the audit objective. Accordingly, we
              assessed the Department's internal controls with regard to the DER program. We did not
              use computer processed data during this review. Because our review was limited, it
              would not necessarily have disclosed all internal control deficiencies that may have
              existed at the time of the audit. Management waived the exit conference.
DOE F 1;i5.8
   (8-89)
 EFG (07-90)


United States Government                                                                        Department of Energy


 memorandum
           DATE:       MAY 2 9 2003
      REPLY TO
       ATTN OF:      IG-34 (A03PR013)
      SUBJECT:       Final Report Package for Audit of the "Distributed Energy Resources Program"
                     Audit Report Number: OAS-L-03-17
               TO:   Frederick D. Doggett, Deputy Assistant Inspector General for Audit Services

                     Attached is the required final report package on the subject audit. The pertinent details are:

                         1. Actual Staff days:      90
                            Actual Elapsed days: 67

                        2. Names of OIG and/or contractor audit staff:

                            Assistant Director:    George W. Collard
                            Team Leader:           Robert W. Lewandowski
                            Auditor-in-Charge:     James M. Powell
                            Audit Staff:           Matthew J. Pollock
                        3. Coordination with Investigations and Inspections:
                            Investigations:         Brenda L. Froberg - March 7, 2003
                            Inspections:            Henry    Minner -March 11, 2003



                                                            Rickey . Hass, Director
                                                            Sciencd, Energy, Technology,
                                                             and Financial Audits
                                                            Office of Audit Services
                                                            Office of Inspector General
                     Attachments:
                     1. Final Report (3)
                     2. Monetary Impact Report
                     3. Audit Project Summary Report
                     4. Audit Database Information Sheet
                                                                                                              Attachment 2

                              MONETARY IMPACT OF REPORT NO.: OAS-L-03-17


      1. Title of Audit:    "Distributed Energy Resources Program"

      2. Division:         . Science, Energy, Technology, and Financial Audits

      3. Project No.:       A03PR013

      4. Type of Audit:

              Financial:                                          Performance:        X
                Financial Statement                                 Economy and Efficiency                    X
                Financial Related                                   Program Results
              Other (specify type):

5.

                                                                                                              MGT.         POTENTIAL
          FINDING                      BETTER USED                          QUESTIONED COSTS                POSITION        BUDGET
                                                                                                                            IMPACT
                                               Recurring
(A)             (B)           (C)      (D)        (E)      (F)        (G)           (H)         (I)            (J)             (K)
                Title        One      Amount      No.     Total    Questioned   Unsupported    Total        C=Concur         Y=Yes
                             Time      Per       Yrs.    Amount     Portion       Portion                   N=Noncon         'N=No
                                       Year                                                                 U=Undec

       None                  N/A       N/A       N/A     N/A          N/A          N/A         N/A            N/A             N/A




TOTALS--ALL FINDINGS


6. Remarks: There is no current monetary impact or potential future savings.

7. Contractor:                                          10. Approvals:                         /
8. Contract No.:                                             Division Director & Date                             '/2/63
9. Task Order No.:                                           Technical Advisor & Date                  /^           ,/
                                            Office of the Inspector General (OIG)
                                       Audit Project Office Summary (APS)
                                                                                                                                  Page 1
Report run on:                 May 15, 2003 2:40 PM


   Audit#: A03PR013            Ofc:   PRA       Title: DISTRIBUTED ENERGY RESOURCES PROGRAM

                                                              **:**       Milestones    ****          '
                                           --------------                  Planned ---------------                 Actual
                                               Profile                  End of Survey         Revised

   Entrance Conference:                     01-AUG-03                     24-FEB-03            24-FEB-03        24-FEB-03

   Survey Completed:                                                                           07-MAY-03

   Field Work Complete:
   Draft Report Issued:                                                   30-JUL-03
   Exit Conference:
   Completed with Report:                   28-JAN-04                                                           02-MAY-03        (R
   ---------     Elapsed Days                        180                                                             67
     ---------     Staff Days:                          0                         0                                  90

   Date Suspended:                                                     Date Terminated:
   Date Reactivated:                                                   Date Cancelled:
   DaysSuspended(Cur/Tot):                  0 (                )Report Number:                 OAS-L-03-17
   Rpt Title:        DISTRIBUTED ENERGY RESOURCES PROGRAM


                                              ****     Audit codes and Personnel'.                                     ..   .*    -


   Aud Type:            Not Found
   Category: OTH       OTHER                                                    AD:            376   LEWANDOWSKI
   DOE-Org:            Not Found                                                AIC:     675         POWELL
   Maj Iss:  103       PERFORMANCE MANAGEME                                     HDQ-Mon: 421         SCHULMAN
   Site:          SSA SINGLE-SITE AUDIT                                         ARM:           459   COLLARD

                                                        S***Task          Information,****'j2

          Task No:
          Task Order Dt:                                               CO Tech; Rep:
          Orig Auth Hrs:                                               Orig Auth Costs:
          Current Auth:                                                Current Auth Cost:
          Tot Actl IPR Hr:                                             Tot Actl Cost:


                                                                   /
                                                        **,            Time Charges ****
                     Emip/Cont Namie            Numdays                     Last DateN

                     WILSON,   A                             0.4            03-MAY-03
                     LEWANDOWSKI,      R                     6.9            03-MAY-03
                     POWELL, J                          33.1                03-MAY-03
                     POLLOCK, M                         49.3                03-MAY-03
                     Total:                                 89.7
                                                                              Attachment 4

                     AUDIT DATABASE INFORMATION SHEET


1. ProjectNo.: A03PR013

2. Title of Audit: Distributed Energy Resources Program

3. Report No./Date: OAS-L-03-17/May 2, 2003

4. Management Challenge Area: Performance Management

5. Presidential Mgmt Initiative: R&D Investment

6. Secretary Priority/Initiative: Energy Resources

7. Program Code: EE

8. Location/Sites: SSA/HER

9. Finding Summary: No findings. This was a letter report.

10. Keywords:     distributed generation        Distributed Energy Resource
                  Energy Efficiency             DEER
                  DER                           EE
                  microturbine                  reciprocating engine
                  CHP                           cooling, heating and power
